                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM


                                                                                 11
I



    Case Number: I03120077                                                                    Page 1 of 1



          On 23 November 2003, the complainant1contacted OIG to express his concern regarding the
          misappropriation of NSF award2 funds. The complainant stated the principal investigator C PI)^
          on an NSF grant claimed to have attended a conference that he did not actually attend but paid
          for the trip with NSF award funds. The complainant also stated that the PI was double billing for
          travel expenses and the PI had a conflict of interest that was not being addressed by the
          institution.

          OIG talked to the complainant at great length and exchanged several emails concerning his
          allegations. The complainant submitted documentation that allegedly demonstrated the truth of
          his allegations. OIG contacted the institution and requested all financial documentation related
          to its grant. We asked that the institution pay special attention to travel expenses and explain
          each with as much detail as possible. The institution forwarded all documentation requested and
          explained to OIG's satisfaction each travel expense.

          After reviewing the information submitted by the complainant and the institution and the
          institutions explanation of the travel expenses, OIG concluded that the institution had
          misappropriated approximately $2,354.76 of award funds. The institution promptly adjusted its
          Federal Cash Transaction Report to reflect the return of those funds. After receiving
          confirmation of this adjustment, OIG is satisfied that the institution spent the remainder of its
          funds appropriately. Accordingly, this case is closed.




          ' footnote redacted
           footnote redacted
           footnote redacted



NSF OIG Form 2 (1 1/02)                                                                              I
